                                                                Issue Date
                                                                  November 26, 2007
                                                                Audit Report Number
                                                                     2008-BO-1002




TO:         Donna J. Ayala, Director, Office of Public Housing, Boston, Massachusetts,
              Regional Office, 1APH


FROM:       John Dvorak, Regional Inspector General for Audit, Region 1, 1AGA

SUBJECT: Holyoke Housing Authority’s, Holyoke, Massachusetts, Lack of Management
           Controls Resulted in Section 8 Units Not Meeting Housing Quality Standards


                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Holyoke Housing Authority’s (Authority) Section 8 Housing
             Choice Voucher (Section 8) program as part of our fiscal year 2007 audit plan.
             Our objectives were to determine whether the Authority’s Section 8 housing units
             met housing quality standards (HQS) in accordance with U.S. Department of
             Housing and Urban Development (HUD) requirements and whether the
             Authority’s inspections of the housing units were timely and sufficient to detect
             HQS violations.


 What We Found


           The Authority did not adequately ensure that its Section 8 housing units met HUD’s
           housing quality standards. Of the 63 program units statistically selected for
           inspection, 43 failed inspection, and 26 were materially noncompliant with housing
           quality standards. The Authority did not always perform its inspections in a timely
           manner; notify the owners of inspection results in a timely manner; or abate the
           housing assistance payments when repairs were not made as required. The
          Authority also did not have an adequate quality control process in place to ensure
          that inspections detected HQS violations or were properly performed and in
          compliance with HUD’s and the Authority’s requirements. Based on our statistical
          sample, we estimate that over the next year, the Authority would use more than $1.6
          million in Section 8 housing assistance for units with material housing quality
          standards violations, if the Authority does not establish effective management
          controls.


What We Recommend


           We recommend that the Director of HUD’s Boston Office of Public Housing require
           the Authority to implement controls to ensure that its inspection policies and
           procedures are followed and that all units meet HUD’s housing quality standards
           to prevent $1.6 million in program funds from being spent on units that are in
           material noncompliance. The Authority also should be directed to implement
           controls to ensure that future Section 8 quality control inspections are properly
           performed and supported by adequate documentation.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-3. Please also furnish us copies of any correspondence
           or directives issued because of the audit.


Auditee’s Response


           We provided the Authority the draft report on October 26, 2007, and held an exit
           conference on November 5, 2007. The Authority generally agreed with our
           report.

           We received the Authority’s response on November 13, 2007. The complete text
           of the auditee’s response, along with our evaluation of that response, can be found
           in appendix B of this report.




                                            2
                           TABLE OF CONTENTS

Background and Objectives                                                          4

Results of Audit
      Finding: The Authority’s Section 8 Housing Units Did Not Meet Housing        5
      Quality Standards

Scope and Methodology                                                              12

Internal Controls                                                                  14

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use               15
   B. Auditee Comments and OIG’s Evaluation                                        16
   C. Schedule of Units in Material Noncompliance with Housing Quality Standards   21




                                           3
                      BACKGROUND AND OBJECTIVES


The United States Housing Act of 1937 established the federal framework for government-
owned affordable housing. This act also authorized public housing as the nation’s primary
vehicle for providing jobs and building and providing subsidized housing through HUD. HUD
disperses funds to public housing agencies under annual contributions contracts to provide
subsidy payments or housing assistance payments for participating low-income families.

The Quality Housing and Work Responsibility Act of 1998 created the Section 8 Housing
Choice Voucher tenant-based (Section 8) program. The Section 8 program is funded by HUD
and allows public housing authorities to pay HUD subsidies directly to housing owners on behalf
of the assisted family. The goal of the Section 8 program is to provide decent, safe, and sanitary
housing at an affordable cost to low-income families. To accomplish this goal, program
regulations set forth basic housing quality standards, which all units must meet before assistance
can be paid on behalf of a family. These standards establish the minimum criteria necessary for
the health and safety of program participants.

The Section 8 program is administered by the Holyoke Housing Authority (Authority) for the
City of Holyoke, Massachusetts. HUD contracts with the Authority for the administration and
management of low-income units through annual contributions contracts. The Authority had 968
units under contract as of May 1, 2007, and it received approxmately $17.9 million in funding
for its HUD-funded programs for fiscal years 2004 through 2006. The annual contributions
contracts require the Authority to follow appropriations laws, HUD requirements including
public housing notices, and the Authority’s administrative plan.

The principal staff member of the Authority is the executive director, who is hired and appointed
by the Authority’s board of commissioners (board). The executive director is directly
responsible for carrying out the policies established by the board and is delegated the
responsibility for hiring, training, and supervising the remainder of the Authority’s staff to
manage the day-to-day operations of the Authority and to ensure compliance with federal and
state laws and directives for the programs managed.

Our audit objectives were to determine whether the Authority’s Section 8 units met housing
quality standards in accordance with HUD requirements and whether the inspections of the
housing units were timely and sufficient to detect violations. This is the second of two audit
reports on the Authority’s Section 8 program.




                                                4
                                 RESULTS OF AUDIT

Finding 1: The Authority’s Section 8 Housing Units Did Not Meet
Housing Quality Standards
The Authority did not always ensure that its Section 8 housing units met housing quality
standards. Of the 63 program units statistically selected for inspection, 43 failed inspection, and
26 were materially noncompliant with housing quality standards. The Authority also did not
always perform its inspections in a timely manner; notify the owners of inspection results in a
timely manner or abate the housing assistance payments when repairs were not made as required.
In addition, the Authority did not adequately perform and document its quality control
inspections as required by HUD’s regulations and its administrative plan. These conditions
occurred because the Authority did not have a system in place to ensure that its Section 8
inspectors followed its policies and procedures. As a result, the Authority housed families in
units that did not meet HUD’s standards for decent, safe, and sanitary housing. If the Authority
does not establish effective management controls, we estimate that over the next year, it would
pay more than $1.6 million in Section 8 housing assistance payments for units with material
housing quality standards violations.


 HUD’s Housing Quality
 Standards Were Not Met and
 the Violations Found


               We statistically selected a sample of 63 of the Authority’s Section 8 housing units
               to inspect from a universe of 968 active units. From our inspections, we found
               106 housing quality standards violations in 43 of the 63 units that failed
               inspection. By projecting the failure rate (68 percent) to the Authority’s universe
               of 968 units, we determined that at least 570 of the units would not meet HUD’s
               minimum housing quality standards. In addition, we found that 26 (41 percent) of
               the 63 sample units were materially noncompliant with housing quality standards.
               By projecting the 26 units with violations to the universe of 968 units, we
               determined that a minimum of 304 of the Authority’s units would be materially
               noncompliant with HUD’s housing quality standards. If corrective action is not
               taken, we estimate that the Authority will spend more than $1.6 million in the
               next 12 months on these 304 units that are materially noncompliant.

               The Section 8 housing units that were materially noncompliant had 47 HQS
               violations that created substantially unsafe tenant living conditions, including
               missing or nonfunctioning ground fault circuit interrupters, missing smoke and/or
               carbon monoxide detectors, roach infestations, and garbage and debris. By
               contrast, those units that were not considered to be materially deficient had HQS
               violations, such as broken window panes, mold forming in the bathroom, and



                                                5
nonfunctioning ground fault circuit interrupters when the outlet had no power.
These types of deficiencies also affected tenant health and safety but not to a high
enough degree to consider the units materially deficient. Appendix C details the
violations found in each of the 26 failed units determined to be materially
noncompliant.

The most predominant violations were electrical hazards, specifically lack of or
nonfunctioning ground fault circuit interrupters. According to the Authority’s
administrative plan, any electrical problem or condition that could result in shock
or fire is considered a life-threatening condition. We identified 38 electrical
violations in 30 of the Authority’s Section 8 units inspected. The following
picture is an example of the electrical hazards identified.




     Outdoor electrical outlet that was not properly secured and exposed wires.

The Authority did not always follow its policies and procedures for performing
inspections. Specifically, the Authority did not always ensure the inspectors
followed the inspection process described in the inspection procedures. For
example, the inspectors were not consistent in identifying missing ground fault
circuit interrupters, and did not properly test the Section 8 units’ ground fault
circuit interrupters outlets to determine whether they were operating correctly.
The inspectors relied on pushing the test button on the ground fault circuit
interrupters to determine whether the outlet was operating correctly, instead of
using outlet testing devices to properly test them. Pushing the test button does not
always indicate that the ground fault circuit interrupter is wired correctly and
operating as intended. When we notified the Authority of our findings during the
inspections of the 63 units, the Authority learned it did not have the proper tools
for identifying all electrical housing quality standard violations. The Authority
took action and ordered pocket testers for each of its inspectors.

In addition, our inspections identified ten violations of missing smoke and/or
carbon monoxide detectors in the Authority’s program units inspected, as well as
four instances of roach infestation and three instances of significant debris. The
following pictures are examples of the violations identified in the Authority’s
program units inspected.


                                  6
Roach present on the kitchen counter.           Basement floor torn up and debris on the
                                                floor causing a tripping hazard.




Exterior siding falling off the building.       Exterior porch rotting and falling off support
                                                beam.

        We provided our preliminary results to the Authority during the course of the
        inspections. The Authority’s inspectors provided documentation indicating that
        the Authority followed up on the violations noted during our inspections;
        however, it did not always follow up in a timely manner. In several instances in
        which we identified 24-hour life-threatening violations, the Authority did not
        ensure that the owner and/or tenant certified that the violations were corrected
        within 24 hours. The Authority also did not reinspect the units with 24-hour life-
        threatening violations for approximately 30 days. Therefore, we still have no
        assurance that 24-hour life-threatening violations are corrected in a timely
        manner.

        However, the Authority did notify all the owners of the 43 units that failed
        inspection. Before the end of our audit, the Authority had reinspected all the failed
        units to verify that the owners had taken appropriate corrective actions to make
        the units decent, safe, and sanitary. If appropriate actions were not taken, the
        Authority abated the housing assistance payments.



                                            7
Inspection Not Timely, Results
Not Communicated, and
Failure to Abate Rents


            The Authority did not always inspect or communicate the inspection results in a
            timely manner and failed to abate rents when necessary because it did not always
            follow its inspection policies and procedures. Specifically, the Authority did not
            always

            •   Perform annual inspections in a timely manner. Of the 63 units, the Authority
                did not perform inspections in a timely manner, or within 12 months of the
                previous inspection, for 42 units. Annual inspections must be scheduled so
                that all units are inspected every 12 months. For four of these inspections, we
                were not able to determine whether the Authority performed them in a timely
                manner because it could not locate the previous inspections for comparison.
                The Authority had two Section 8 inspectors, a lead housing inspector and a
                housing inspector. According to the lead housing inspector, the Authority fell
                behind on its inspections when the housing inspector was out for a few
                months at the end of 2006 and beginning of 2007 due to medical issues.
                During that time, the lead housing inspector was the only one conducting
                inspections.

            •   Notify the owners of life-threatening health and safety issues in a timely
                manner and ensure that they were repaired within 24 hours. The Authority
                identified life-threatening violations in 10 of the 63 units; however, it had no
                assurance that the owners mitigated the violations within 24 hours as required.
                According to the Authority’s administrative plan, when life-threatening
                conditions are identified, the Authority will immediately notify both parties by
                telephone, facsimile, or e-mail. The notice will specify what party is
                responsible for correcting the violation. The corrective actions must be taken
                within 24 hours of the Authority’s notice. The Authority notified owners of
                life-threatening deficiencies by means of a letter, which was mailed to the
                owner. In some instances, it took several weeks or even months before the
                Authority notified the owner of a life-threatening deficiency, and the owners
                were not able to correct them in a timely manner. The Authority did not
                reinspect the units for life-threatening deficiencies until it performed a
                reinspection for all of the deficiencies noted (usually at least 30 days after the
                inspection). Further, the Authority’s letters to the owners did not always
                indicate which items were life threatening and needed to be corrected within
                24 hours.




                                              8
                 •    Notify owners of inspection results in a timely manner and ensure that
                      corrections were completed within 30 days of the inspection. According to
                      the Authority’s administrative plan, when failures that are not life threatening
                      are identified, the Authority will send the owner and the family a written
                      notification of the inspection results within five business days of the
                      inspection. Generally not more than 30 days will be allowed for the
                      correction. The Authority did not send six of the 26 letters to the owners in a
                      timely manner. In four instances, the Authority sent the letters more than 30
                      days after the inspection

                 •    Abate the housing assistance payments when repairs were not made in a
                      timely manner. In some instances, the Authority started counting the 30 days
                      for abatement on the date of the letter instead of the date of the inspection.
                      This practice was necessary since the Authority did not send the letter to the
                      owner for several weeks or months after the inspection had been completed.
                      In these cases, the Authority could not abate the housing assistance payments
                      since the owner had not been notified of the violations. If the Authority had
                      followed its policies and notified the owners of the deficiencies in a timely
                      manner, repairs may have been made in a timely manner. However, since the
                      owners were not notified in a timely manner, the units remained in
                      noncompliance with HUD’s housing quality standards after the required
                      correction period (24 hours or 30 days after the inspection). Consequently,
                      the Authority paid $6,193 in housing assistance for nine units that would have
                      been abated had it followed its inspection process and abated the housing
                      assistance payments on the first of the month following the correction period.
                      1



                 In addition, the Authority had no system to track the inspections and follow up to
                 ensure that they were performed in a timely manner. The inspectors manually
                 tracked their inspection dates, results, and compliance with deadlines and
                 abatements through hard-copy documents. The Authority implemented a new
                 computer system at the end of 2006 and began recording and tracking inspection
                 dates, results, and followup for failed units. The Authority should be able to use
                 the new system to schedule inspections starting in January 2008; ensure that units
                 are inspected in a timely manner; and ensure follow up is performed in a timely
                 manner.



1
  The abatement amount was calculated based on the date of the inspection adding 30 days for repair as of the 1st of
the following month the HAP should have been abated. The Authority did not provide notification of deficiencies to
the owners of 9 units in a timely manner. Therefore, the units remained in noncompliance with housing quality
standards beyond the required correction period (24 hours or 30 days). The Authority should have abated the
housing assistance payments on the first of the month following the correction period for these 9 units. We prorated
the housing assistance payment for each unit based on the number of days it was over the correction period. Using
this calculation, we determined that the Authority paid $6,193 for these units that should have been abated.




                                                         9
The Authority Did Not Perform
Adequate Quality Control


           The Authority did not adequately perform or document its quality control
           inspections. As a result, the Authority had no assurance its inspectors were
           performing adequate inspections, identifying all deficiencies and were following
           the Authority’s inspection policies and procedures. Specifically, the Authority

           •   Did not perform quality control inspections on initial or passed inspections.
               The Authority only performed quality control inspections as a reinspection of
               failed units. A reinspection of a failed unit is not an adequate quality control
               inspection as a reinspection is part of the original inspection process and does
               not ensure that the process as a whole is functioning properly. The quality
               control process needs to be separate from the inspection process.
               Reinspections are performed to ensure that deficiencies identified during the
               original inspection were repaired. Conversely, a quality control inspection is
               designed to ensure that the inspectors are performing quality inspections and
               not overlooking violations. During the Authority’s quality control inspection,
               the inspector did not complete an inspection checklist listing additional
               deficiencies, nor were any results provided to determine the quality of the
               original inspection. Therefore, it appears that the inspector was only ensuring
               that deficiencies identified during the original inspection were corrected.

           •   Did not perform quality control inspections on inspections performed by the
               lead inspector, discuss the results with the inspectors, or document the results
               of the quality control inspections. The Authority has two inspectors, one of
               whom is a lead inspector; however, he is not in a supervisory position. The
               lead inspector performed quality control reviews of the other inspector’s
               work; however, there were no quality control inspections performed on the
               lead inspector’s work. The lead inspector stated that he performed an average
               of three quality control inspections each month. The sample represented a
               cross-section of neighborhoods where program units were located and
               inspections were completed by the second inspector. The tracking schedule
               maintained by the Authority listed the tenant name, address, date of quality
               control inspection, and name of the inspector conducting the quality control
               inspection; however, there was no indication of the results of the quality
               control inspection (i.e., did the unit pass upon reinspection, were additional
               deficiencies identified?). The tracking schedule also did not indicate when the
               original inspection was performed.




                                            10
Conclusion



                  The Authority did not follow its procedures and lacked controls to ensure that it
                  effectively inspected and monitored the condition of its Section 8 units. As a
                  result, tenants lived in units that were not decent, safe, and sanitary. HUD needs
                  to ensure that the Authority’s management implements controls to ensure that its
                  policies and procedures for housing inspections are consistently followed to
                  prevent tenants from living in unsanitary and unsafe units. Further, Authority
                  management needs to implement procedures and controls over its inspection
                  quality control process and abatement process to ensure that they are performed in
                  accordance with HUD requirements.


    Recommendations



                  We recommend that the Director of HUD’s Boston Office of Public Housing require
                  the Authority to

                  1A. Implement controls to ensure that it follows HUD’s procedures for
                      conducting inspections, abating rents and performing Section 8 quality
                      control inspections to ensure that units meet HUD’s housing quality
                      standards and to prevent $1.6 million in program funds from being spent on
                      units that are in material noncompliance.

                  1B. Repay $6,193 from nonfederal funds for units that remained in
                      noncompliance with housing quality standards and were not abated due to
                      the Authority’s lack of notification of deficiencies to the owners.

                  1C. Inspect all of its remaining Section 8 units 2 and ensure that they meet
                      housing quality standards. If any of the units cannot be made decent, safe,
                      and sanitary, the Authority must either abate the housing assistance
                      payments or terminate the tenants’ lease as appropriate.




2
 There were 905 units active Section 8 vouchers/units in addition to the 63 in our sample at the time of our review
but this number can change daily.


                                                         11
                                 SCOPE AND METHODOLOGY

We conducted our audit between April and September 2007. We completed our fieldwork at the
Authority’s central office located at 475 Maple Road, Holyoke, Massachusetts, and at the various
housing units selected for review. Our audit covered the period January 1, 2004, through December
31, 2006, and was extended when necessary to meet our audit objective.

To accomplish our audit objective, we

       •   Reviewed relevant HUD regulations, including 24 CFR [Code of Federal Regulations]
           982 and the Housing Choice Voucher Guidebook 7420.10.G.

       •   Reviewed the Authority’s administrative plan approved for use during our audit period,
           including the latest plan approved in April 2007.

       •   Interviewed Authority supervisors and staff to determine the Authority’s housing quality
           standards processes and controls.

       •   Reviewed the Authority’s completed quality control reviews for the fiscal year ending
           December 31, 2006, to determine whether the performed reviews were adequate.

       •   Reviewed inspection files to obtain the results of inspections that were previously
           performed by the Authority and to determine whether the Authority performed adequate
           followup.

       •   Inspected a statistical sample of 63 housing units and recorded and summarized the
           inspection results.

We statistically selected a sample of 63 of the Authority’s program units to determine whether
the Authority ensured that its units met housing quality standards. The sample was based on the
Authority’s housing assistance payment prepayment batch listing as of May 1, 2007. We sorted
the listing to include only active housing choice voucher tenants to arrive at our universe of 968
units. We obtained the sample based on a confidence level of 90 percent, a precision level of 10
percent, and an assumed error rate of 50 percent. Twelve additional sample units were selected
to be used as replacements if necessary.

We reviewed the sample of 63 units and determined that 26 of 43 failed units were materially
deficient. We determined that the 26 units 3 were in material noncompliance because they had 47
deficiencies that created unsafe living conditions.

Projecting the results of the 26 units that were in material noncompliance with housing quality
standards to the universe indicates that 399 or 41.27 percent of the universe contained the
attributes tested. The sampling error is plus or minus 9.86 percent. In other words, we are 90

3
    Sixteen units had material violations that existed before the Authority’s last inspection.


                                                             12
percent confident that the frequency of occurrence of the attributes tested lies between 31.40 and
51.13 percent of the universe. This equates to an occurrence of between 304 and 495 units of the
968 units in the universe.

   •   The lower limit is 31.40 percent of 968 units = 304 units in material noncompliance with
       minimum housing quality standards.

   •   The point estimate is 41.27 percent of 968 units = 399 units in material noncompliance
       with minimum housing quality standards.

   •   The upper limit is 51.13 percent of 968 units = 495 units in material noncompliance with
       minimum housing quality standards.

Using the lower limit and the average annual housing assistance payments for the universe based
on the Authority’s housing assistance payments register, dated May, 2007, we estimate that the
Authority will spend at least $1,654,350 (304 units x $5,441.94 average annual housing
assistance payment) for units that are in material noncompliance with housing quality standards.
This estimate is presented solely to demonstrate the annual amount of Section 8 program funds
that could be put to better use on decent, safe, and sanitary housing if the Authority implements
our recommendations.

We performed our review in accordance with generally accepted government auditing standards.




                                               13
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

                  •   Effectiveness and efficiency of program operations – Policies and
                      procedures that management has implemented to reasonably ensure that a
                      program meets its objectives.
                  •   Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resources are used
                      consistent with laws and regulations.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses


              Based on our review, we believe the following item is a significant weakness:

                  •   The Authority lacked effective management controls over its inspection
                      process to ensure that its units complied with HUD’s requirements.




                                               14
                                   APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

Recommendation number               Ineligible 1/             Funds to be put to better use 2/

         1A                                                             $1,654,350
         1B                            $6,193


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. The amount is based on the estimated 161 units in
     material noncompliance with minimum housing quality standards and is presented solely
     to demonstrate the annual amount of Section 8 program funds that could be put to better
     use on decent, safe, and sanitary housing if the Authority implements our
     recommendations.




                                            15
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         16
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         17
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 2




Comment 3




                         18
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 4




                         19
                         OIG Evaluation of Auditee Comments

Comment 1   The material violations for smoke/carbon monoxide detectors only include units
            with missing detectors. Units with non-functioning smoke/carbon monoxide
            detectors (i.e., missing batteries) were not included as material deficiencies. We
            recognize that our inspection results reflect a snapshot of the conditions of a unit
            at a particular point in time. However, 24 CFR 982.401(a)(3) requires that all
            program housing meet the housing quality standards performance requirements
            both at commencement of assisted occupancy, and throughout the assisted
            tenancy.

Comment 2   The Authority disagrees with our projected results of funds put to better use,
            which will be the $1.6 million in annual housing assistance payments issued for
            units in material noncompliance with housing quality standards. We used
            statistical sampling which allows our audit results to be projected to the
            population. To be conservative, we used the lower limit to determine our
            projected results. The $1.6 million in housing assistance payments is an estimate
            and not a statistical projection and is used only for the purpose of determining the
            annual amount of Section 8 funds that could be put to better use. The Authority
            believes that only a one-month period should be used to determine funds to be put
            to better use since abatements are implemented for a one-month period before the
            tenant is put on certificate time and asked to find a new unit; however, our audit
            found that housing quality violations were not always identified by the Authority's
            inspectors. Therefore, these conditions could have continued indefinitely. The
            audit also found that the Authority is not abating rents as required when units fail
            to meet housing quality standards. If the Authority implements our
            recommendations, it will cease to incur Section 8 costs for units that are not
            decent, safe, and sanitary. This action will instead expend those funds for units
            that meet HUD’s standards. Once the Authority successfully improves its
            controls, this will be an indefinite recurring benefit. Our estimate reflects only the
            initial year of these recurring benefits.

Comment 3   The Authority concurred with Recommendation 1B; however, whether the funds
            are put into the Section 8 program or paid to HUD is at the discretion of HUD.
            Regardless, the funds must come from non-federal funds.

Comment 4   The Authority concurred with Recommendation 1C and has begun to reinspect
            the units.




                                             20
         Appendix C

               SCHEDULE OF UNITS IN MATERIAL NONCOMPLANCE
                    WITH HOUSING QUALITY STANDARDS


                                                              Types of violations
Sample    Smoke/
                                            Other
number    carbon                                                        Exterior           Fire   Garbage/                         Water
                    Electrical Infestation interior   Range   Roof                 Porch                   Security Floor Toilet
         monoxide                                                       surface            exit    debris                          heater
                                            hazard
         detector
  1                    2
  2        1           1
  4                    1                                                                                              1      1
  6        1
 10                    1
 15                    1
 16        1                                                   1          1         1
 18                    1
 22                    1
 27                    1                       1                                            1        1        1
 30                    1
 32                    1
 33                    1
 38        1                       1
 39                    1
 41                                1           1       1
 42                    2           1
 45                    1
 49                    1           1
 50                    1
 52                    1
 56                    2
 58                    1
 59                                                                                 1                1                               1
 60                    1
 62        2
Totals     6          23           4           2       1       1          1         2       1        2        1       1      1       1




                                                                   21
